IN THE SUPREME COURT OF THE UNITED STATES

BENJAMIN ROSS,

PETITIONER

V.
UNITED STATES OF AMERICA, RESPpNDENT-

ZZ3
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FI LED
PETITION FOR A WRIT OF CERTIORARI

WAV 2 1 2021

BENJAMIN ROSS PRO SE
FCI MCKEAN
P.O. BOX 8000
BRADFORD, PA 16701

RECEIVED
MAY 2 1 2021
OFFICE OF THE CLERK
SUPREME COURT IIS J

QUESTIONS FOR REVIEW
NO. 1

WHETHER THE FOURTH AMENDMENT REQUIRES REASONABLE, ARTICULABLE SUSPICION
AND PROBABLE CAUSE TO JUSTIFY A PRETEXTUAL TRAFFIC STOP?

NO. 2. WHETHER REASONABLE SUSPICION OF CRIMINAL ACTIVITY AND PETITIONERS
NERVOUSNESS JUSTIFY DETAINING, PAT SEARCHING, AND HAVING DRUG DOG SNIFF
PETITIONERS VEHICLE VIOLATE THE.SUPREME COURT'S RULING IN RODRIGUEZ v.
UNITED STATES, AND WHETHER THE PROLONGED DETENTION VIOLATED THE FOURTH
AMENDMENT?

i

TABLE OF CONTENTS
PAGE
QUESTIONS FOR REVIEW
TABLE OF CONTENTS...
TABLE OF AUTHORITIES
PARTIES TO THE PROCEEDINGS
OPINIONS BELOW

i
ii
Hi
1
1

JURISDICTION OF THE SUPREME COURT

2
2

CONSTITUTIONAL PROVISIONS INVOLVED WITH THE CASE
STATEMENT OF THE CASE
REASONS FOR GRANTING WRIT
CONCLUSION
INDEX TO
APPENDIX
APPENDIX
APPENDIX
APPENDIX

APPENDICES
A
ORDER ON PETITION FOR REHEARING EN BANC
B
UNPUBLISHED OPINION FROM THE SIXTH CIRCUIT COURT OF APPEALS
C
OPINION OF THE U.S. DISTRICT COURT
D ' ORDER OF SIXTH CIRCUIT COURT OF APPEALS APPOINTING COUNSEL

(

ii

3
7
19

TABLE OF AUTHORITIES

CASES

PAGE

Delaware v. Prouse, 99 S. Ct. 1391 (1979).................................

7

Feathers v. Aye, 319 F.3d 843 (6th Cir. 2003)..........................

7

Pennsylvania v. Mimms, 98 S. Ct. 330 (1977)..............................

13

Rodriguez v. United States, 135 S. Ct. 1609..............................

15,16,18

Terry v. Ohio, 392 U.S. 1 (1968)...................................................

7

United States v. Burton, 334 F.3d 514 (6th Cir. 2003)..........

8

United States v. Davis, 430 F.3d 345 (2005)..............................

15

United States v. Everett, 601 F.3d 384 (6th Cir. 2010)........

18

United States v. Ferguson, 8. F.3d 385 (6th Cir. 1993)........

13

United States v. Hughes, 606 F.3d 311 (6th Cir. 2010)......

8

United States v. Jackson, 682 F.3d 448 (6th Cir. 2012)........

8

United States v. Lott, 954 F.3d 919 (6th Cir. 2020)..............

15

United States v. Lujan, 2018 U.S. Dist. LEXIS 13229..............

17

United States v. Palomino, 100 F.3d 446 (6th Cir. 1996)....

7

United States v. Richardson, 385 F.3d 625 (6th Cir. 2004)..

15

United States v. Stepp, 680 F.3d 651 (6th Cir. 2012)............

..15,18

Whren v. United States, 517 U.S. 806 (1996)..............................

8,12,13,19

Williams v. Leatherwood, 258 Fed. Appx. 817 (6th Cir. 2007)

iii

8

STATUTES

PAGE

Ohio Revised Code Section 4513.241............

8

Ohio Admin. Code Section 4501-41-03(A)(3)

8

Ohio Revised Code Section 4511.39(A)........

8

18 U.S.C. § 922(g)(1).................. ...............

5

18 U.S.C. § 924(a)(2)......................................

5

21 U.S.C. § 841(a)(1)......................................

3,4

21 U.S.C. § 841(b)(1)(B)................................

4

21 U.S.C. § 841(b)(1)(C)................ ...............

3

21 U.S.C. § 846.................................................

4

28 U.S.C. § 1254(1).....................................

2,8

Constitutional Provisions

2

iv

No.
IN THE SUPREME COURT OF THE UNITED STATES

BENJAMIN R. ROSS,
PETITIONER,
V.
UNITED STATES OF AMERICA,
RESPONDENT.

PETITION FOR WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

Benjamin R. Ross asks that a writ of certiorari is issued to review the
Judgement and Opinion entered by the

United States Court of Appeals for the

Sixth Circuit on March 2, 2021, which is a unpublished opinion.

PARTIES TO THE PROCEEDING:
The caption of the case names all the parties to the proceeding in the court
below.
OPINIONS BELOW:
The Court of Appeals opinion affirming the denial of Petitioner's Motion to
Suppress is attached hereto as Appendix A.
The Court of Appeals Order denying Petitioner's Motion to Extend the Time to
File a Rehearing En Banc is attached hereto as Appendix J3.
1

The Opinion of the District Court denying Petitioner's Motion to Suppress is
attached hereto as Appendix C.
JURISDICTION OF THE SUPREME COURT OF THE UNITED STATES:
The Court of Appeals OPINION affirming the denial of Petitioner's Motion to
Suppress was entered March 2, 2021. The Court of Appeals denial of Petitioner's
motion requesting an extension of time to file a rehearing en banc motion was
denied March 29, 2021. This Petition is filed within 150 days of both orders
mentioned above. See Sup. Ct. Order dated March 19, 2020. This Court has juris­
diction to grant certiorari under 28 U.S.C. § 1254(1).

CONSTITUTIONAL PROVISIONS INVOLVED IN THIS CASE:
The Fourth Amendment to the United States Constitution provides: The
right of the people to be secure in their persons, houses, papers, and effects,
against unreasonable searches and seizures, shall not be violated, and no
warrants shall issue, but upon probable cause, supported by OATH or affirmation,
and particularly describing the place to be searched, and the person or things
to be seized.

2

STATEMENT OF THE CASE

On May 16, 2019, a Criminal Complaint was filed In the United States Dist­
rict Court for the Northern District of Ohio by Special Agent Paul Stroney Jr • 9
D.E.A • ) in which the criminal complain alleged that on May 15, 2019, Petitioner
violated 21 U.S.C. §§ 841(a)(1) and (b)(1)(C), possession with intent to dist­
ribute controlled substances. The complaint was based on his Affidavit, which
alleged, on the above described date, Petitioner who was driving a BMW sedan,
was stopped on Southern Boulevard in Youngstown Ohio by Ohio State Highway
Patrol (OSHP) Sergeant Dunbar. Petitioner was allegedly stopped for having
excessive window tint, and while Sergeant Dunbar was speaking with Petitioner,
observed "criminal indicators". While Sergeant Dunbar was interacting with
Petitioner, OSHP Trooper Baker arrived at the scene, at which point Dunbar asked
Petitioner to exit his vehicle and conducted a consensual pat-down. Subsequently,
Petitioner was placed in the cruiser. Trooper Baker then used his certified
narcotics detection canine to conduct an open air sniff of the exterior of
Petitioner's car. The canine alerted to the odor of controlled substances at
the driver's

side of the car, then the troopers began a search of the car,

locating 4.25 ounces of light blue pills packaged within two layers or vacuum
sealed plastic marked with an "M" inside a rectangle and "30" above a line on the
reverse side.

Affiant

alleged that, based on his experience and training

the markings on the pills, their taint blue color, and the fact that they were
sealed in vacuum sealed plastic packaging caused Affiant to believe the pills
actually contained Fentanyl, a schedule II controlled substance; and, that
Petitioner had two cell phones in his possession which indicated to Affiant, based

3

on his experience and training, that often drug trafficker's utilize multiple
cellular telephones in order to thwart law

enforcement investigations. The

Complaint was signed by Magistrate Judge Limbert.

(R.jl, Page ID ## 1-8)

Petitioner was arrested at the scene of the stop. On May 17, 2019, he was
appointed a Federal Public Defender, an Initial appearance was held. On May 22,
2019, a preliminary examination

and a detention hearing were held and the

Court found that probable cause existed for the charge, and Petitioner was
bound over to the Grand Jury. Petitioner was ordered detained and "remanded to
the custody of the U.S. Marshals. (R.6, and R. 16, Page ID ## 71-116). On May
23, 2019, the Court entered and Order of Detention. (R. 7, Page ID ##.42-43).
On June 4, 2019, the Grand Jury returned and Indictment charging Petitioner
with One Count of Knowingly and Intentionally Attempting to Possess with intent
to Distribute approximately 117.70 grams of fentanyl, a violation of 21 U.S.C.
§ 841(a)(1), (b)(1)(B), and 846. (R. 10, Page ID ## 47-51).
On August 30, 2019, Petitioner filed a Motion to Suppress (R. 24, Page
ID ## 136-139) in which he claimed that the traffic stop violated the Fourth
Amendment of the U.S. Constitution, arguing that "the officers did not have a
reasonable, articulable suspicion or probable cause to stop [his] vehicle",
and therefore asked that all evidence obtained be suppressed. (R. 24 Page ID
## 136-139). On September4^0, 2019, the Government

filed a response thereto

in which it argued that the stop of Petitioner was reasonable at its inception
, because the Petitioner's traffic violations. (R. 26, Page ID ## 141-155, R. 26-1,
Page ID # 156, R. 26-2, Page ID ## 157-164, R. 26-3, Page ID # 165, and R. 26-4,
Page ID # 166). After a hearing was conducted on September 23, 2019 (R. 46 Page
ID ## 277-403), the lower Court entered an order denying the Motion to Suppress,
finding that the stop in question was reasonable and that the officer's had
reasonable suspicion to stop Petitioner because the car he was driving had ex4

cessive window tint and the Petitioner did not use a turn signal. (R. 30, Page
ID ## 175-179).
Petitioner, pursuant to a Plea Agreement filed on October 15, 2019, agreed
to plead guilty to the indictment. However, Petitioner reserved the right to
appeal any sentence to the extent it exceeded that maximum sentencing imprison­
ment range determined under the advisory Sentencing Guidelines, and the District
Court's denial of his motion to suppress. (R. 31, Page ID ## 180-189).
Petitioner's sentence occurred on February 4, 2020. He was also sentenced
at the same hearing for a violation ot his supervised release which began on
May 17, 2019, imposed for being a felon in possession of a firearm in violation
of 18 U.S.C. § 922(g)(1) and 924(a)(2). As to the criminal case, based on the
fact Petitioner's criminal history and the fact that he committed the crime he
plead guilty to while on supervised release, the Court followed the recommendation
of the Probation Officer in the Presentence Investigation Report and varied
upward two levels and imposed a sentence of 120 months, which was an upward
variance of 15 months from Petitioner's advisory guideline range. (R. 48, Page
ID #449-451), The final judgment in the criminal case was entered on February 10,
2020. Petitioner was sentenced to an additional 24 months to run consecutively
for the supervised release violation.
Petitioner filed a notice of appeal from the final judgment in this case
on February 11, 2020.

5

On August 12, 2020, Petitioner filed his direct appeal brief In the United
States Court of Appeals for the Sixth Circuit. There, Petitioner argued that the
police did not have reasonable suspicion or probable cause to stop Petitioner's
vehicle for an alleged traffic violation. Petitioner also argued that the District
Court erred when it imposed an upward variance without providing specific reasons
for its decision.
On October 28, 2020, the Government filed its motion in opposition of Pet­
itioner's direct appeal alleging

that 1) the record supported the Court's factual

determination that the trooper observed Petitioner commit a traffic violation, and
2) the court adequately articulated its reasoning for varying upward by 15-months
in Petitioner's sentence.
On March 2, 2021,

the United States Court of Appeals for the Sixth Circuit

issued its OPINION on Petitioner's direct appeal, which was not recommended for
publication, affirming the judgment of the District Court. In the Court of Appeals
OPINION, it must be noted that the Court pointed to two specific errors made by
the District Court that seriously harmed the Petitioner's case, but the Court of
Appeals failed to correct the lower courts mistakes.
On March 29, 2021, Petitioner's then Counsel filed a motion for extention
of time to file a Petition for Panel Rehearing, with an attached Petition for
Panel Rehearing. On the same date (March 29, 2021) the Court of Appeals for the
Sixth Circuit submitted its ORDER denying motion to extend time to file rehearing
petition. The Court also filed its ORDER declaring the panel rehearing petition
as moot.
6

REASONS FOR GRANTING WRIT
ARGUMENT NO. 1
WHETHER THE FOURTH AMENDMENT REQUIRES REASONABLE, ARTICULABLE
SUSPICION AND PROBABLE CAUSE TO JUSTIFY A PRETEXTUAL TRAFFIC STOP?
Petitioner avers that Sergeant Dunbar of the Ohio State Highway Patrol
("OHSP") did not have reasonable, articulable suspicion or probable cause to
initiate the pretextual traffic stop on his vehicle. On May 15, 2019 Sergeant
Dunbar, who was waiting for Petitioner to leave a residence so that they can
initiate a tiaffic stop of Petitioner's BMW. It is apparent*from the record
of this criminal case that Sergeant Dunbar created his own probable cause
or reasonable suspicion that Petitioner committed a traffic violation. Sergeant
Dunbar claimed that he stopped Petitioner's vehicle for excessive window tint,
in which the officer submitted in his investigation notes. (R. 26-2, Page ID
##157-164).

During the Motion to Suppress hearing, for the first time, Sergeant

Dunbar stated the he also stopped Petitioner because "of the late use of his
turn signal," (R. 46, Page ID # 12, and R. 30, Page ID # 175), however, it would
have been incumbent

for Sergeant Dunbar to submit in his investigation notes

that he stopped Petitioner for his late use of the turn signal, if in fact, this
did occur.
"Police may briefly stop an individual for investigation if they have a
'reasonable suspicion' that the individual has committed a crime. United States
v. Palomino, 100 F. 3d 446, 449 (6th Cir. 1996); Terry v. Ohio, 392 U.S. 1, 27,
88 S. Ct. 186.8, 20 L.Ed.2d 889 (1968); The same standards applies to vehicle
stops. See also Delaware v. Prouse, 440 U.S. 648, 663, 99 S. Ct. 1391,
59 L. Ed. 2d 660 (1979). The Sixth Circuit as well as other Court's has explained
7

that the 'reasonable suspicion1 standard requires that law enforcement officers
possess specific facts tending to indicate criminal activity before initiating
an investigative detention:
'Reasonable suspicion' is more than an ill-defined; it must be
based upon a particularized and objective basis for suspecting
the particular person of criminal activity. It requires specific
and articulable facts which, taken together with rational infer­
ences from those facts, reasonably warrant an investigatory stop.
Williams v. Leatherwood, 258 Fed. Appx. 817, 821 (6th Cir. 2007). Reasonable
suspicion must be apparent “at the moment that they initiate the stop, and
not after the defendant has been stopped." Feathers v. Aye, 319 F.3d 843,
848 (6th Cir. 2003); See also, United States v. Hughes, 606 F.3d 311 (6th Cir.
2010)(holding in pertinent part, "an officer may not use after-the-fact
rationalizations to justify a traffic stop • • • ).
The Fourth Amendment permits an officer who has probable cause to believe
a traffic violation is occurring to detain the automobile, regardless of the
officer's subjective intention for the stop. United States v. Burton, 334 F.3d
514, 516, (6th Cir. 2003)(citing United States v. Whren, 517 U.S. at 812-13).
Consequently, [a] driver's failure to use a turn signal provides probable
cause to justify a traffic stop irrespective of the officer's subjective intent,
(if-the driver actually failed to signal). United States v. Jackson, 682 F.3d 448,
453 (6th Cir. 2012).
Ohio law requires window tinting to allow at least 50% of the light to pass
through. See Ohio Revised Code Section 4513.241 and Ohio Admin. Code Section
4501-41-03(A)(3). Ohio law requires that "a signal of intention to turn or move
right or left shall be given continuously during not less than the last one
hundred feet traveled by the vehicle • • • before turning." Ohio Revised Code Section 4511.39(A).
8

According to the record, the stop in question occurred on May 15, 2019 at
approximately 4:25 p.m • f near the intersection of Lowell Avenue and Southern Blvd • 9
in Youngstown, Ohio. Just before the stop, OSHP Sergeant Dunbar was parked in a
cruiser directly in back of OSHP Officer Baker's SUV on Lowell Avenue approximately
l/10th of a mile from Southern Blvd. The officers were working "criminal inter­
diction" and as stated before, were waiting for Petitioner "to leave the house."
(R'.r46 Page ID #"85). The record is clear that the officers expected Petitioner
to appear driving a car and they planned on stopping him. The officers were
working with the D.E.A. that day. (R. 46, Page ID ##46-47). Sergeant Dunbar
was appointed to make the traffic stop, and Officer Baker, who was a canine
handler (R. 46*:Page ID # 74)/ was going to have his dog sniff for the odor
of narcotics around Petitioner's car after the stop. The stop was recorded on
Sergeant Dunbar's dash-cam and the video was offered'by the Government as Ex­
hibit 1 in the Opposition to Petitioner's Motion to Suppress. (R. 26-1, Page ID
# 156). The dash-cam video provides the best record of what occurred both shortly
before and after the stop. The dash-cam video also reveals that Sergeant Dunbar
created his own false probable cause or reasonable suspicion to initiate the
pretextual traffic stop of Petitidner's vehicle.
Sergeant Dunbar's dash-cam reveals that at the beginning of the video, he
is standing next to Officer Baker's SUV speaking with him (BAKER) while on Lowell
Avenue. According to the time on tie dash-cam, Sergeant Dunbar got into his
cruiser, pulled out around Officer Baker's SUV and drove towards Southern Blvd,
which was approximately 1/lOth of a mile away at the end of Lowell Avenue. At
1:21 on the video, Petitioner, driving his BMW, can be seen emerging from a side

9

street and making a left turn onto Lowell Avenue in front of Sergeant Dunbar. The
video shows him making the turn onto Lowell Avenue from 1:21-1:25. At this part­
icular point, Sergeant Dunbar is approximately 300 yards from Petitioner. Upon
noticing Petitioner, Sergeant Dunbar can be seen speeding up to get closer to
Petitioner's vehicle. During the Suppression Hearing, Sergeant Dunbar testified
that at approximately 1:23-1:25 on the video, he noticed the illegal window tint
on Petitioner's car from approximately 300 yards away. (R. 46, Page ID ## 50-51).
At 1:26-1:32 on the video, Petitioner's car, while on Lowell Avenue is
approaching Southern Blvd •

9

and Petitioner's left-hand turn signal appears to be

on. At 1:30 on the video, Sergeant Dunbar turned on his lights and sirens and
initiated the stop. At this particular point, Petitioner was still on Lowell
Avenue and had "NOT" even begun to turn onto Southern Blvd. Petitioner is seen
turning from Lowell Avenue onto Southern Blvd • * from 1:30-1:34; Petitioner's
turn signal still'appears to be on before he makes the turn. At this point, it
clear that the turn signal is prominently displayed, and at 1:36 Petitioner
comes to a complete stop.
From 1:26-1:32, the video reveals that when Sergeant Dunbar was at a distance
directly behind Petitioner, or when Sergeant Dunbar was viewing Petitioner during
the turn, Petitioner's turn signal is not as pronounced but, upon a careful in­
spection, demonstrates that the turn signal was nonetheless visible. When Ser­
geant Dunbar pulls up fairly close to Petitioner, the turn signal is prominent.
The turn signal can clearly be seen from 1:26-1:34.
Did Sergeant Dunbar have reasonable suspicion or probable cause to support
that Petitioner had illegal window tinting and/or failed to signal as he was
10

turning onto Southern Blvd from Lowell Avenue? The Honorable Supreme Court's
answer to this question tor review should be "NO". The evidence clearly shows that
Dunbar and Baker were stationed, as apart of the interdiction team, along with
the D.E.A • * awaiting for Petitioner to leave a residence driving a car and they
intended to "stop it"—that is before they ever saw Petitioner's vehicle. (R. 46,
Page ID # 85). Sergeant Dunbar also noted in his Initial Incident Summary and
his Report of Investigation, Investigative Notes, that on May 15, 2019, he was
working in the area of Southern Boulevard and Lowell Avenue when he "noticed a
black BMW sedan with extremely dark window tint • • • " (R. 26-2, Page ID #163). In
Sergeant Dunbar's testimony at the Suppression Hearing, he stated he noticed the
window tint on Petitioner!s car sometime between the 1:23-1:25 point on the video.
At this point, Sergeant Dunbar is approximately 300 feet from Petitioner. (R. 26,
Page ID ##50-51). The video reveals that Sergeant Dunbar could not have seen
If Petitioner's vehicle had excessive window tint. Sergeant Dunbar of course
had to testify that he noticed some traffic violation, thus creating his own
probable cause to initiate the stop at 1:30 of the video evidence. Moreover,
Sergeant Dunbar testified that Petitioner did not have his turn signal on until
Petitioner had completely pulled onto Southern Blvd • 9 which is clearly at odds
with the video. To determine the accuracy of Sergeant Dunbar's testimony, it Is
necessary to keep in mind that Dunbar intended to stop Petitioner betore he ever
saw him. (R. 46, Page ID #85). Dunbar, of course, knew he had to observe some
type of traffic violation to justify the stop, in which is exactly why Dunbar
falsified and created the bizzar story that Petitioner did not use a turn signal
(including the excessive windows that he saw from 300 yards away). Dunbarls
testimony concerning the turn signal is clearly refuted by the video that Dunbar
11

testified that Petitioner did not turn his signal on until he was on Southern
Boulevard. This point is clearly untrue—Petitioner had his signal on at 1:26
and he was stopped at 1:36 on the video. This information is useful in evaluating
the credibility of Sergeant Dunbar, not only with respect to the claim that Pet­
itioner did not use his turn signal until he was on Southern Boulevard, but also
as to when Dunbar noticed the existence of the window tint on the passenger side
of the vehicle.
A review of the video by the Supreme Court would reveal Sergeant Dunbar
initiated the stop of Petitioner's vehicle without having specific facts reflecting
any criminal activity. In regards to the window tinting, a review of the video
by the Supreme Court would reveal that Sergeant Dunbar that knowledge after
initiating the stop, not when Dunbar first observed Petitioner in his car when
he was 300-yards away. This is a case where the police were going to stop Pet­
itioner on some suspected illicit drug activity and created evidence of traffic
violations to justify the stop.
Petitioner is aware of the holdings of Whren v. United States, 517 U.S. 806,
116 S. Ct. 1769, 135 L. Ed. 2d 89 (1996). Accordingly, such a pretextual stop like
Petitioner's must comport with the Fourth Amendment. As the United States Supreme
Court has held:
"...an automobile stop is • • • subject to the constitutional Imperative
that it not be "unreasonable" under the circumstances. As a general
matter, the decision to stop an automobile is reasonable where the
12

police have probable cause to believe that a traffic violation
has occurred. [See Delaware v. Prouse, 440 U.S. 648, 659, 99
S. Ct. 1391, 1399, 59 L. Ed. 2d 660 (1979); Pennsylvania v. Minims,
434 U.S. 106, 109, 98 S. Ct. 330, 332, 54 L. Ed. 2d 331 (1977) (per
curiam).] Whren, 517 U.S. at 8l0. The test endorsed by the Supreme
Court is whether the particular officer making the stop, regardless
of his actual subjective motives, had probable cause to believe
that a traffic offense has occurred. Id. at 813."'
The objective test was applied in the Sixth Circuit even before the pronounce­
ment in Whren. See United States v. Ferguson, 8 F.3d 385 (6th Cir. 1993)(holding
that "so long as the officer haS probable cause to believe that a traffic violat­
ion has occurred or was occurring, the resulting stop is not unlawful and does
not violate the Fourth Amendment’’).
The full and complete record demonstrates the facts that Sergeant Dunbar
did not have reasonable suspicion or probable cause to perform the pretextual
traffic stop on Petitioner's vehicle, and Sergeant Dunbar created his own set
of visual traffic violations to initiate the stop. The facts in the record
(Suppression Hearing Trans.) would also demonstrate that once Sergeant Dunbar
reviewed the dash-cam video, his testimony slightly changed stating he saw the
late turn signal first

and then the tinted windows; however, initially, in

Dunbar's Reports he stated he saw the dark tinted windows from 300 yards away.
It is completely evident that Sergeant Dunbar changed his testimony to fit his
version of probable cause, but Sergeant Dunbar's created version of probable
cause or reasonable suspicion is clearly refuted by the dash-cam and his testi­
mony, thus, the Supreme Court should grant Certiorari because the stop of Pet­
itioner’s vehicle violated the Fourth Amendment. Certiorari should also be granted
in this case to fix the provisions and holding in Whren, because of the incredible
numbers of possible motor civil traffic provisions governing the operation of
13

automobiles, officers will always be able to allege some traffic violation that
provides the police with the ability to stop anyone they choose without violat­
ing the Fourth Amendment. With these facts in hand, the police cannot assume the
existence and create their own probable cause claiming that a traffic violation
has occurred when initiating a pretextual traffic stop. The Fourth Amendment re­
quires the police to have reasonable suspicion or probable cause when they initiate
a stop. In order to protect against the police from mistakenly or intentionally
claiming the presence of such traffic violations, when in fact, they did not occur,
Petitioner asks this Honorable Supreme Court to be vigilant in reviewing the
independent evidence, such as the video dash-cam and Sergeant Dunbar's Investi­
gation Reports, and subsequent testimony in this case in deciding whether the
stop was based upon reasonable suspicion and/or probable cause to justify the stop.
The lower Court's ignored the above described facts from the record. The Pet­
itioner respectfully asks this Honorable Supreme Court to grant a Writ of Cert­
iorari in this case.

14

ARGUMENT

NO. 2

WHETHER REASONABLE SUSPICION OF CRIMINAL ACTIVITY AND PETITIONERS NERVOUSNESS
JUSTIFY DETAINING, PAT SEARCHING, AND HAVING A DRUG DOG SNIFF
~
PETITIONERS VEHICLE1 VIOL'ATETHE : SUPREME 'COURT’ S RULING IN
RODRIGUEZ v. UNITED STATES, AND- WHETHER THE PROLONGED DETENTION VIOLATED
THE FOURTH AMENDMENT?
Petitioner avers that the lower Court's erred when it believed that it
did not have to analyze whether Sergeant Dunbar's observations of Petitioner's
nervous behavior was sufficient to justify prolonging the traffic stop by
detaining Petitioner, making him exit his vehicle, pat-searching him, detaining
him(in the police car.and having a K-9 sniff for narcotics.
Contrary to the lower Court's belief, officers can use "nervousness as one
of the indicators to believe a suspect is up to criminal activity,” but it can
not be used as a solo indicator. The Sixth Circuit has repeatedly held that
"nervousness-even extreme nervousness-'is an unreliable indicator' of someone's
dangerocsness, 'especially in the context of a traffic stop. • ••

See

United States v. Richardson, 385 F.3d 625, 630 (6th Cir. 2004)(collecting cases).
It is not uncommon for an individual to become "nervous during a traffic stop,
even when they have nothing to hide or fear." Id. F.3d at 630-31.
United States v. Lott,

See also

954 F.3d 919 (6th Cir. 2020), stating "a seizure can be

extended if "something happened during the stop to cause the officer to have a
reasonable and articulable suspicion that criminal activity is afoot." United
States v. Stepp, 680 F.3d 651, 661 (6th Cir. 2012)(quoting United States v. Davis,
430 F.3d at 353). But nervous behavior alone is legally insufficient to establish
such reasonable suspicion.
In Petitioner's case, Sergeant Dunbar only alleged to have witnessed that
15

Petitioner "seemed very nervous" (R. 46: Dunbar's Test • > Page ID # 289), and when
asked if there were any other indicators other than Petitioner breathing heavy
and he had bad window tint, Sergeant Dunbar stated:
"I noticed his voice was shaky • • « * " (Id. at Page ID #335). T
Thus, contrary to the lower court's belief, the reliance only on "nervousness
as a indicator of Petitioner‘being suspected of criminal activity" was clearly
against the Sixth Circuit's case law or precedence, rendering the pat search,
continued detention of Petitioner a violation of his Fourth Amendment right.
Furthermore, The Sixth Circuit Court of Appeals failed to adhere to the
Supreme Court's'decision in Rodriguez v. United States, 575 U.S. 348 (2015). In
Rodriguez, the Supreme Court held that officers may not prolong a traffic stop
to have a drug dog sniff a car-a crime detecting action not ordinary incident
to a traffic stop-absent independent reasonable suspicion to detain the motor­
ists). Id. This Court determined that the police violated the Fourth Amendment
by detaining Rodriguez for seven or eight minutes after terminating the traffic
stop by issuing him a ticket. Id at 135 S. Ct. 1609, 1613—16„(rejecting the
argument that the prolongation of the stop was permissible because it was de
minimis). Authority for the seizure thus ends when tasks tied to the traffic
infraction are-or reasonably should have been completed, whichever comes first.
This Court, addressed that the "ordinary inquiries incident to the traffic
stop" that do not impermissibly extend the stop includes "checking the driver's
license, determining whether their are any outstanding warrants against the
driver, and inspecting the automobile's registration and proof of insurance".
Id. at 1615.
The approach employed by Sergeant Dunbar was to extend the stop beyond
16

the time needed to complete the initial investigation. Rodriguez, 135 S. Ct. at
1612 (the seizure becomes unlawful if it is prolonged beyond the time reasonably
required to complete the mission). Sergeant Dunbar abandoned the window tint
violation and the alleged signal violation and immediately pursued a separate
investigation for which Sergeant Dtinbar had no justification, or no reasonbale
suspicion to pursue. Petitioner was in the process of showing Sergeant Dunbar
his registration, and at this point, Sergeant Dunbar believed Petitioner was
"very nervous" and required Petitioner to exit his vehicle to subject Petitioner
to a pat-search and to detain him in the patrol vehicle, without the intentions
to arrest Petitioner for the alleged window tint or turn signal violation. The
stop went beyond the time that the Constitution would permit under these cir­
cumstances. The canine sniff of the vehicle was conducted after the stop should
have ended..By contrast, if the totality of the circumstances, viewed object­
ively, establishes that Sergeant Dunbar, without reasonable suspicion, definitively
abandoned the prosecution of the traffic stop and embarked on another sustained
course of of investigation, this would surely bespeak a lack of diligence. Ser­
geant Dunbar did not diligently pursue the traffic ticket for the alleged vio­
lations of the window tint or the turn signal. Sergeant Dunbar didn't even
issue a warning for the alleged violations, instead he (Dunbar) engaged Pet­
itioner into a "pat-search and detained him in the patrol vehicle." "Police
are not allowed to use the time that would have been needed for incidental in­
quiries as "bonus time" to venture out and conduct unrelated investigations."
United States v. Lujan, 2018 U.S. Dist. LEXIS 13229, 2018 WL 3742452, at *6
(E.D. Tenn. Aug. 8, 2018).

The Sergeant's belief that there was reasonable ar17

•ticulable suspicion to believe criminal activity may be afoot, because Petitioner
was nervous, and conducting a pat-search and detaining Petitioner were all designed
for "ferreting out unrelated criminal conduct” that simply prolonged the stop.
United States v. Everett, 601 F.3d 484, 495 (6th Cir. 2010). Rather, Sergeant
Dunbar pursued the pat-down, detaining, and another line of questioning, unlawfully
extended the stop prior to the dog conducting the sniff of the vehicle. In
United States v. Stepp, 680 F.3d 651, 662 (6th Cir. 2012) the Sixth Circuit rec­
ognized that there was a danger that an officer could delay pursuing the initial
traffic violation until "she has satisfied herself that all of her hunches were
unfounded." Id. Indeed, in that case, the Sixth Circuit found that just six
minutes of extraneous questioning constituted an unreasonable seizure.

Thus,

"any • • • prolonged, even de minimis, is an unreasonable extension of an otherwise
lawful stop." Stepp, 680 F.3d at 661-62. In Stepp, following the officer quest­
ioning the defendants, he called for a canine unit, which took three and a half
minutes to arrive. The Sixth Circuit found this unreasonably prolonged the stop.
This is what occurred here, in Petitioner's case.
Sergeant Dunbar only claimed he had reasonable suspicion of criminal act­
ivity based on Petitioner's nervousness, however, Sergeant Dunbar could not
point to any other indicators to believe criminal activity was afoot to conduct
the pat-search, detention, and questioning of Petitioner, prior to the drug dog
arriving to the scene, which was at the point when Dunbar had unnecessarily
prolonged the stop. An officer cannot unlawfully prolong a seizure to obtain
reasonable suspicion of criminal activity to justify a search of the vehicle.
See, e.g • » Rodriguez, 135 S. Ct. at 1616.
18

The touchstone of any Fourth Amendment analysis is reasonableness. Pet­
itioner asks this Honorable Supreme Court to conduct a fact-bound, contextdependent

inquiry into this case. With the Supreme Court Justices, having fully

considered the circumstances as they unfolded during the stop, as viewed on the
dash-cam, in conjunction with Sergeant Dunbar's testimony, the Court should find
no acceptable purpose of Sergeant Dunbar's extended detention, prolonged questioning
of Petitioner, pat-search, detainment, and subsequent dog sniff after the traffic
should have ended.

The Supreme Court's other concern should respectfully be, that

police officer's are using the state of the law [based on Whren] as carte blanche
permission to stop and search 'target' or 'profile' vehicles for drugs and that
it should be the lower Court's responsibility to make sure that police officers
act appropriately and not abuse the power legally afforded to them by, among
other things, carefully scrutinizing a police officer's testimony as to the pur­
pose of the initial traffic stop.
CONCLUSION

FOR THESE REASONS, Petitioner asks this Honorable Supreme Court to GRANT
Certiorari and review the Judgment of the Sixth Circuit Court of Appeals.
Respectfully Submitted,
/s/
May fl

BENJAMIN ROSS PRO SEPETITIONER

, 2021

19

